OIG Investigative Reports, Southern California Woman Pleads Guilty to Defrauding Department of Education
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
PRESS RELEASE:
Central District of California, CA March 28, 2000
Thomas Mrozek, Public Affair Officer:
(213) 894-6947
thom_mrozek@usdoj.gov
Southern California Woman Pleads Guilty to Defrauding Department of Education
A woman who had served as the Financial Aid Director of a private graduate school of Oriental medicine has entered a guilty plea to charges that she defrauded the Department of Education by obtaining federally insured student loans for friends and family member.
Anna Yun, 26, a Cerritos resident, pled guilty to two counts of student loan fraud arising from her employment in 1998 at Dongguk-Royal University, a private graduate school of Oriental medicine located in Los Angeles, United States Attorney Alejandro N. Mayork as announced today.
According to Assistant United States Attorney Paul H, Rochmes, who prosecuted the case, Yun served as the Financial Aid Director of the University from February 1998 to May 29, 1998. During her tenure as the Financial Aid Director, Yun was responsible for processing applications for student aid, including applications for federally guaranteed loans under the Robert T. Stafford Federal Student Loan Program. Yun applied for and obtained Stafford Loans for her mother, her father and two friends, even though they had never applied to or attended the University. In order to obtain the loans, Yun falsely certified on the applications that all of the borrowers were full-time graduate students. The University discovered the fraud and reported it to the Department of Education shortly after Yun resigned.
The loans that were fraudulently applied for totaled $62,500. Approximately $33,000 was disbursed before the fraud was discovered. The banks that had made the loans froze the remaining funds after the University reported the fraud.
United States District Court Judge Margaret M. Morrow is scheduled to sentence Yuri on June 12, 2000 at 1:30 p.m. Yun faces a maximum possible sentence of ten years in prison and a $40,000 fine.
Contact: Assistant United States Attorney Paul Sochmes (213) 894-2413
Top
Printable view
Share this page
Last Modified: 02/28/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov